U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



Accountability and Oversight of the
  National School Lunch Program -
San Lorenzo Unified School District
 For the Year Ended June 30, 2003




                   Report No.
                   27099-24-SF
                   March 2004
                UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                         Western Region - Audit
                                      75 Hawthorne Street, Suite 200
                                      San Francisco, CA 94105-3920
                                  TEL: 415-744-2851 FAX: 415-744-2871



DATE:          March 26, 2004

REPLY TO
ATTN OF:       27099-24-SF

SUBJECT:       Accountability and Oversight of the National School Lunch Program-
               San Lorenzo Unified School District

TO:            Allen Ng
               Regional Administrator
               Western Region
               Food and Nutrition Service

ATTN:          Kathleen Burks
               Director of Financial Management


This report presents the results of our audit of the National School Lunch Program (NSLP) at the
San Lorenzo Unified School District. We limited our review to the school district’s policies and
procedures regarding (a) meal accountability (b) student eligibility and (c) monitoring. Nothing
came to our attention during the audit that would indicate that the program was not operating as
prescribed.

BACKGROUND:

On June 4, 1946, Congress passed the National School Lunch Program Act (42 U.S.C 1751),
now the Richard B. Russell National School Lunch Act, as amended December 29, 2001,
authorizing Federal assistance to the States in the establishment, maintenance, and operation of
school lunch programs. The Act established the NSLP to safeguard the health and well being of
the Nation’s children and to encourage the domestic consumption of nutritious agricultural
commodities. The program provides Federal assistance to help public and nonprofit schools of
high school grade or under, as well as public nonprofit private residential child care institutions
that serve nutritious lunches to children.

The NSLP is usually administered through a State’s Department of Education (State Agency)
that has the responsibility for administration of the program. School Food Authority’s are
responsible for the administration of the program at the local, school district level. Individual
schools are responsible for the onsite operation of the NSLP, which includes the implementation
of an adequate meal accountability system, the approval of student applications, and a review of
the monthly meal claim for accuracy.
Allen Ng                                                                                       2


OBJECTIVE:

Our objectives were to determine if the San Lorenzo Unified School District had a system in
place to (a) account for program meals (b) verify student eligibility and (c) adequately monitor
the program.

SCOPE AND METHODOLOGY:

Our review covered the period July 1, 2002 to June 30, 2003. During this period the district
received USDA funds totaling $1,171,468 for administering the program. We judgmentally
selected for review the meals claims submitted by the district for January, February, and March
2003. During this 3-month period the district received $385,796 in USDA funds. Audit work
was performed during July 2003 through October 2003, at the Food and Nutrition Service
Regional Office (FNSRO) in San Francisco, California; California Department of Education in
Sacramento, California; and San Lorenzo Unified School District in San Lorenzo, California.

To accomplish our objectives, we performed the following procedures:

   •   We reviewed applicable laws, regulations, policies and procedures governing the NSLP
       to become familiar with the requirements of the program.

   •   At the FNSRO, we reviewed the latest evaluations of the State Agency to determine if
       there were any issues that needed to be reviewed at the San Lorenzo Unified School
       District.

   •   At the State Agency, we reviewed the latest single audit and the administrative reviews
       completed for the San Lorenzo Unified School District.

   •   At the San Lorenzo Unified School District, we interviewed school lunch program
       personnel and reviewed policies and procedures to become familiar with the district’s
       operations. We conducted site visits to 2 schools within the district to verify that the
       district had a system in place that would adequately account for meals. We also reviewed
       documentation supporting the meal claim at the schools we visited and the district office
       to ensure that the correct number of meals was being reported.

   •   At the San Lorenzo Unified School District, we interviewed the Director of Child
       Nutrition to obtain an understanding of the process used to verify student eligibility and
       monitor schools in its jurisdiction.

This audit was performed in accordance with generally accepted government auditing standards.
Allen Ng                                                                                        3


SUMMARY

During our audit, nothing came to our attention to indicate that the San Lorenzo school district
(a) was not adequately accounting for meals (b) was allowing ineligible students to participate in
the program or (c) was not adequately monitoring schools in its jurisdiction.

We discussed the subject report with members of your staff on March 18, 2004. They agreed to
elevate the subject report from discussion draft to final. Accordingly, no further action is
required by your agency on this report. We will close our file on the audit with the issuance of
this audit report.

We appreciate the assistance and cooperation of your staff during this review.




\s\
SAM W. CURRIE
Regional Inspector General
  for Audit
Informational copies of this report have been distributed to:

Agency Liaison Officer                                          (3)
General Accounting Office                                       (2)
Office of Management and Budget                                 (1)
Planning and Accountability Division
Director                                                        (1)
